HHS/OIG, Audit -"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title
IV-D Children in Indiana Under the State Children Health Insurance Program,"(A-05-02-00073)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title IV-D Children in
Indiana Under the State Children Health Insurance Program," (A-05-02-00073)
August 23, 2004
Complete
Text of Report is available in PDF format (471 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Indiana has an opportunity to increase enrollment in the State Children’s
Health Insurance Program (SCHIP) and have noncustodial parents pay a portion of the associated costs.  Based on a
statistical sample, we estimated that 21,264 Title IV-D children would have been eligible to receive SCHIP benefits during
the period June 1, 2001 through May 31, 2002.  The noncustodial parents of 10,940 of these children could have contributed
$6.4 million toward the $10.7 million in premiums that would have been incurred if the children had been enrolled.  We
also determined that 2,770 Title IV-D children received SCHIP benefits during the audit period.  An estimated 416
of these children had noncustodial parents who could have contributed $162,821 toward the $247,112 in SCHIP premiums paid
on behalf of their children.  We recommended that Indiana take appropriate steps to recover SCHIP premiums from noncustodial
parents with medical support orders and the ability to pay for their dependent children.